No. 20IN THE

Supreme Court of the United States
MONICO DOMINGUEZ,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

CERTIFICATE OF SERVICE

I, Mark C. Fleming, a member of the bar of this Court, hereby certify that, on
this 21st day of January, 2021, all parties required to be served have been served copies
of the Petition for a Writ of Certiorari in this matter by overnight courier to the
addresses on the attached service list.

MARK C. FLEMING
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000
mark.fleming@wilmerhale.com

SERVICE LIST
SOLICITOR GENERAL
UNITED STATES DEPARTMENT OF JUSTICE
OFFICE OF THE SOLICITOR GENERAL
950 Pennsylvania Ave., NW
Washington, DC 20530
(202) 514-2203
SupremeCtBriefs@USDOJ.gov
VANESSA BAEHR-JONES
UNITED STATES DEPARTMENT OF JUSTICE
OFFICE OF THE U.S. ATTORNEY
NORTHERN DISTRICT OF CALIFORNIA
1301 Clay Street, Suite 340S
Oakland, CA 94612
(510) 637-3680
vanessa.baehr-jones@usdoj.gov

MERRY JEAN CHAN
UNITED STATES DEPARTMENT OF JUSTICE
OFFICE OF THE U.S. ATTORNEY
NORTHERN DISTRICT OF CALIFORNIA
450 Golden Gate Ave., 11th Floor
San Francisco, CA 94102
(415) 436-6750
merry.chan@usdoj.gov
STEVEN G. KALAR
FEDERAL PUBLIC DEFENDER
TODD M. BORDEN
ASSISTANT FEDERAL PUBLIC DEFENDER
OFFICE OF THE FEDERAL PUBLIC DEFENDER
NORTHERN DISTRICT OF CALIFORNIA
450 Golden Gate Ave.
Room 19-6884
San Francisco, CA 94102
(415) 436-7700
todd_borden@fd.org

